WAIVER
SUPREME COURT OF THE UNITED STATES
No. 21-5331
Zachary Rusk

Fidelity Brokerage Services, LLC
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

Digitally.Mgr. by bonsflebahrelvehr.ccon
ON: CN v bomrdebgft.ftprv...,
D.: 2021.01323 1214:41 -0000

9/23/21

Date:

(Type or print) Name Jason D. Boren
0 Mr.

0 Ms:

0 Mrs.

0 Miss

Firm

Ballard Spahr LLP

Address

One Utah Center, Suite 800, 201 South Main Street

City & State

Salt Lake City, Utah

Phone

801-531-3000

Zip 84111-2221
Email borenj@ballardspahr.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cov
Petitioner Zachary Rusk

cc:

211 N 10th Ave
Bozeman MT 59715
zachrusk5@gmail.com

ECEIVED
SEP 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT _US.

